June 10, 2009

RUFUS C. GRAHAM
ACTING PLANT MANAGER, WEST PALM BEACH
 PROCESSING AND DISTRIBUTION CENTER

SUBJECT: Audit Report – Color-Coding of Standard Mail and Mail Condition Reporting
         at the West Palm Beach Processing and Distribution Center
         (Report Number NO-AR-09-006)

This report presents our audit results focusing on color-coding1 of Standard Mail® and
mail condition reporting at the West Palm Beach Processing and Distribution Center
(P&DC), West Palm Beach, FL (Project Number 09XG018NO000). The objectives of
the audit were to determine whether the West Palm Beach P&DC had an adequate mail
color-coding process and properly counted mail. This is the first in a series of reviews
addressing the new color-coding policy for Standard Mail. This audit addresses
operational risks. See Appendix A for additional information about this audit.




1
 The Postal Service uses a system of color-coding to facilitate timely movement of Standard Mail. The color-code
process assigns a color to each day of the week.
Color-Coding of Standard Mail and Mail Condition Reporting at the                NO-AR-09-006
 West Palm Beach Processing and Distribution Center


Conclusion

Opportunities exist at the West Palm Beach P&DC to improve color-coding and
reporting of delayed mail to reflect the color-coding and delayed mail reporting
requirements as of August 29, 2008. Color-coding could be improved by ensuring tags
are complete and properly placed on all mail. In addition, when mail bearing different
color-codes was processed together, the mail was not always properly re-color-coded.
Further, we found that not all delayed mail was reported. For example, during our first
2 days of observations, we found that approximately 100,000 mailpieces were counted,
but not reported as delayed mail. In addition, our review of count sheets for February
2009 found that approximately 1.8 million mailpieces should have been reported as
delayed mail.

Color-Coding of Standard Mail

Of the 537 staged Standard Mail containers reviewed, 461 were properly color-coded
and the remaining 76 were not properly color-coded in accordance with policy.
Specifically,

          59 (about 11 percent) were missing color-code tags.
          Eight (about 1.5 percent) were missing the time and/or date from the tag.
          Nine (about 1.7 percent) were tagged with the wrong color tag.

We also found that when mail bearing different color-codes was processed together, the
mail was not always properly re-color-coded.

Causes

These conditions occurred due to:

        Insufficient color-coding oversight and training.
        Not having local procedures for maintaining the mail color-code after processing.
        Failure of employees to follow the national color-coding policy.

Effect

The U.S. Postal Service cannot ensure the timely processing, dispatching, and delivery
of Standard Mail. Without a date and time on the tag, the Postal Service cannot
determine whether employees processed Standard Mail using the first-in first-out (FIFO)
method.2 Additionally, the Postal Service cannot readily track service standards and
accurately report mail conditions in the web-based Mail Condition Reporting System
(MCRS).


2
    FIFO – mail is staged and processed based on the order of receipt.




                                                           2
Color-Coding of Standard Mail and Mail Condition Reporting at the           NO-AR-09-006
 West Palm Beach Processing and Distribution Center


Failure to accurately color-code and date the mail could confuse delivery units about
when the mail needs to be delivered. See Appendix B for our detailed analysis of this
topic.

We recommend the Acting Plant Manager, West Palm Beach Processing and
Distribution Center:

1. Provide oversight to ensure the proper color-coding of Standard Mail according to
   Postal Service policy.

2. Provide additional color-code training to West Palm Beach P&DC employees.

3. Establish local procedures to maintain the correct color-code throughout processing.

Management’s Comments

Management agreed with the findings and recommendations. Reviews will be
conducted on a continuous basis to ensure compliance with the color-code policy. In
addition, color-code training was provided. Also, local standard operating procedures
were updated for mail color-coding in April 2009. See Appendix D for management’s
comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations. Management’s corrective actions
should resolve the issues identified in the report.

Mail Condition Reporting

The West Palm Beach P&DC was not accurately reporting delayed mail. For example,
we observed from March 10 through 13, 2009, the West Palm Beach P&DC reported
159,087 delayed mailpieces of Standard flats, whereas it should have reported a total of
255,073 delayed mailpieces. Thus, the reports were understated by 95,986 mailpieces.
See Table 1.




                                                    3
Color-Coding of Standard Mail and Mail Condition Reporting at the                                       NO-AR-09-006
 West Palm Beach Processing and Distribution Center


                                Table 1: Delayed Mail Flow Reporting


                      On-Hand
                     Destinating                     Reported               Actual
                                                                                                Underreported
                 Secondary Standard                  Delayed               Delayed
                        Flats
    3/10/2009         139,975                          46,231                59,865                   13,634
    3/11/2009         110,465                          27,057               109,409                   82,352
    3/12/2009          43,293                          43,293                43,293                     0
    3/13/2009          42,506                          42,506                42,506                     0
      Totals          336,239                         159,087               255,073                   95,986

To confirm our observations, we compared the data collection sheets to MCRS reports
during February 2009. During that time, the West Palm Beach P&DC underreported
delayed mail flow3 volume by approximately 1.8 million pieces. (See Appendix B, Table
2.) The actual amount represents over 50 times more than originally reported.

Cause

Because of a misinterpretation of the policy, the West Palm Beach P&DC management
believed they had until the delivery day to process the mail before reporting it as
delayed. While this is the procedure management must follow for Delivery Point
Sequence (DPS) letters, they have one less day for 5-digit Standard flats.

Effect

Not properly reporting mail as delayed prevents management from making effective
operational decisions. Delaying the mail can negatively affect customer service. See
Appendix B for our detailed analysis of this topic.

Management Action

Once proper reporting procedures were brought to the attention of management,
immediate corrective action was taken. Based on management’s corrective action, we
are not making a recommendation.




3
  Delayed mail flow for Standard Mail is a new MCRS definition for processing and Bulk Mail Center (BMC) facilities.
Delayed mail flow occurs when Standard Mail is not processed, finalized, or dispatched from a specific operation or
facility in time to provide the subsequent operation or facility the allotted time necessary to ensure delivery by the
programmed delivery day.




                                                           4
Color-Coding of Standard Mail and Mail Condition Reporting at the          NO-AR-09-006
 West Palm Beach Processing and Distribution Center


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc:   Patrick R. Donahoe
      Jordan M. Small
      David E. Williams, Jr.
      Chris R. Oronzio
      Ruby J. Bridgeforth
      Jennifer L. Stevenson
      Katherine S. Banks




                                                    5
Color-Coding of Standard Mail and Mail Condition Reporting at the                                      NO-AR-09-006
 West Palm Beach Processing and Distribution Center


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Standard Mail is essential to the growth of the Postal Service and is a major factor in its
economic health.4 Standard Mail accounts for approximately 49 percent of all of the
mail volume and 27 percent of the revenue of the U.S. Postal Service per year.5
Delivering Standard Mail timely is important for operational efficiency and customer
satisfaction.

The Postal Service uses a system of color-coding to facilitate timely movement of
Standard Mail. The color-code process assigns a color to each day of the week. This
enables easy processing of mail using the FIFO method. Postal Service management
updated the color-coding policy on June 17, 2008, with an effective date of August 29,
2008. In December 2008, management made an additional update to the policy
clarifying reporting requirements. The Postal Accountability and Enhancement Act of
2006 requires delivery standards for all classes of mail. While standards have not
changed, the policy maintains the integrity of the color-code through processing to
delivery of the mail. The service standard for Standard Mail is 3 - 10 days.

                MAJOR CHANGES TO THE NATIONAL COLOR-CODE POLICY
                              FOR STANDARD MAIL
                       Old Policy                             New Policy - Updated August 29, 2008
    Each unit establishes their Critical Entry Time           National CET 1600 standardized at all
    (CET)                                                     facilities nationwide
    FIFO                                                      FIFO

    BMC not required to color-code.                           BMC required to color-code.

    New color-code at each entry point and level of           Once delivery color-code is applied, maintain
    distribution.                                             through to delivery unit

    MCRS reports delayed mail, plan failure, and
                                                              MCRS reports delayed mail flow.
    delayed dispatch.

    No standardized placarding                                National standardized placarding.
                                                              Standardize tags to identify the facility
    Each unit had own color-code method.
                                                              applying the color-code.
                                                              Color-code based on time and date of
    Color-coded for last mailer “In-Home” date.
                                                              receipt.


4
  Standard Mail is mail that weighs less than 16 ounces and includes circulars, pamphlets, catalogs, newsletters,
direct mail and merchandise.
5
  U.S. Postal Service Annual Report, 2008.




                                                          6
Color-Coding of Standard Mail and Mail Condition Reporting at the                NO-AR-09-006
 West Palm Beach Processing and Distribution Center



Policies and procedures pertaining to the color-coding system are set forth in
Section 458 of the Postal Operations Manual (POM). The POM is being revised to
reflect the changes in the color-code policy.




        Illustration 1:

   A banner provides the
 correct color-code to label
mail at the West Palm Beach
            P&DC.




In support of the changes made to the National Color-Code Policy, changes were also
made to the MCRS. Categories in the MCRS such as Plan Failure, Delayed Processing
and Delayed Dispatch are no longer reported for Standard Mail. The term “Delayed
Mail Flow for Standard Mail” is a new MCRS definition and occurs when mail is not
processed, finalized, or dispatched from a specific operation or facility to ensure delivery
by the programmed delivery day.

Following U.S. Postal Service Office of Inspector General (OIG) prior audit coverage on
color-coding, national policies were updated to include changes recommended in OIG
reports. This is the first report reviewing the implementation of the updated policies.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether the West Palm Beach P&DC had an
adequate mail color-coding process and properly counted mail.

This is the first in a series of audits addressing color-coding and mail reporting at
P&DC’s nationwide. The West Palm Beach P&DC was selected based on
recommendations provided by Postal Service Headquarters.

To determine whether color-coding procedures conformed to the National Color-Code
Policy, we observed the color-coding of Standard Mail at the West Palm Beach P&DC
during the week of March 9, 2009. Additionally, we verified the mail count and reviewed
count data input into the MCRS. We interviewed Postal Service officials and employees
and photographed operations and observed conditions.




                                                    7
     Color-Coding of Standard Mail and Mail Condition Reporting at the                       NO-AR-09-006
      West Palm Beach Processing and Distribution Center


     We used computer-processed data from the following systems:

            Web Enterprise Information System (WebEIS).
            MCRS.
            Enterprise Data Warehouse (EDW).

     We did not test controls over these systems. However, we checked the reasonableness
     of results by confirming our analysis and results with Postal Service managers.

     We conducted this performance audit from February through June 2009 in accordance
     with generally accepted government auditing standards and included such tests of
     internal controls as we considered necessary under the circumstances. Those
     standards require that we plan and perform the audit to obtain sufficient, appropriate
     evidence to provide a reasonable basis for our findings and conclusions based on our
     audit objectives. We believe that the evidence obtained provides a reasonable basis for
     our findings and conclusions based on our audit objectives. We discussed our
     observations and conclusions with management officials on March 13, 2009, and
     included their comments where appropriate.

     PRIOR AUDIT COVERAGE

     Postal Service Management have agreed to the recommendations made in the prior
     reports listed below and have taken corrective action.

         Report Title            Report Number           Final Report Date              Report Results
Color-Coding of Standard         NO-MA-06-003           September 26, 2006    Generally the Portland P&DC
Mail at the Portland, Oregon                                                  color-coded according to the
Processing and Distribution                                                   national policy, however, there
Center                                                                        were instances where policy or
                                                                              best practices were not followed.
Color-Coding of Standard          NO-MA-06-004          September 28, 2006    Generally the Margaret L. Sellers
Mail at the Margaret L.                                                       P&DC color-coded according to
Sellers Processing and                                                        the national policy, however,
Distribution Center                                                           8 percent of the containers
                                                                              reviewed did not conform to the
                                                                              policy.
Color-Coding of Standard          NO-MA-07-001               March 20, 2007   Generally the South Jersey P&DC
Mail at the South Jersey                                                      color-coded according to the
Processing and Distribution                                                   national policy, however, 6 percent
Center                                                                        of the containers reviewed did not
                                                                              conform to the policy.
Color-Coding of Standard          NO-MA-07-002               June 26, 2007    Generally the Mobile P&DC color-
Mail at the Mobile                                                            coded according to the national
Processing and Distribution                                                   policy, however, 17.5 percent of
Center                                                                        the containers reviewed did not
                                                                              conform to the policy.




                                                         8
     Color-Coding of Standard Mail and Mail Condition Reporting at the                       NO-AR-09-006
      West Palm Beach Processing and Distribution Center


        Report Title             Report Number           Final Report Date              Report Results
Mail Condition Reporting at      NO-AR-07-006             August 20, 2007     The mail condition report was
the San Francisco                                                             submitted timely; however, the
International Service Center                                                  data was incomplete and
                                                                              inaccurate.
Mail Condition Reporting at       NO-AR-07-009          September 20, 2007    The mail condition report was
the Miami International                                                       timely, complete and accurate in
Service Center                                                                all MCRS categories, with minor
                                                                              exceptions.
Mail Condition Reporting at       NO-AR-07-010          September 24, 2007    Generally mail condition reporting
the Los Angeles                                                               was accurate, complete and
International Service Center                                                  timely; however, improvements
                                                                              could be made in reporting in-
                                                                              bound parcels and plan failures.
Color-Code Capping Report         NO-MA-07-003          September 28, 2007    Opportunities were identified to
                                                                              improve the color-coding process
                                                                              nationwide.
Mail Condition Reporting at       NO-AR-08-001               March 13, 2008   Mail condition reports were timely;
the J. T. Weeker                                                              however, we found incomplete and
International Service Center                                                  inaccurate data in WebMCRS.
Mail Condition Reporting at       NO-AR-08-005               August 5, 2008   There were opportunities to
International Service                                                         improve mail condition reporting.
Centers Capping Report                                                        While reports were timely, they
                                                                              were often incomplete and
                                                                              inaccurate.




                                                         9
Color-Coding of Standard Mail and Mail Condition Reporting at the             NO-AR-09-006
 West Palm Beach Processing and Distribution Center


                               APPENDIX B: DETAILED ANALYSIS

Color-Coding of Standard Mail

During the week of March 9, 2009, we examined 537 staged containers of Standard
Mail for compliance with the National Color-Code Policy. We found that 461 of the 537
containers were properly color-coded. Of the 76 containers not properly color-coded,
we found:

       59 (about 11 percent) were missing color-code tags. Forty-five of these
        containers were dock transfers of carrier route mail for delivery units.
        (Illustration 2)
       Nine (about 1.7 percent) were tagged with the wrong color tag.
       Eight (about 1.5 percent) were missing the time and/or date from the tag.
        (Illustration 3)

See Appendix C for a chart of the observations.




        Illustration 2



  Forty-five pallets of dock
 transfer carrier route mail
  were not color-coded on
      March 12, 2009.




                                                    10
    Color-Coding of Standard Mail and Mail Condition Reporting at the             NO-AR-09-006
     West Palm Beach Processing and Distribution Center




            Illustration 3

     A cardboard container full
     of Standard Mail received
    from the Jacksonville BMC
     without a date or time on
      the label. Picture taken
      Friday, March 13, 2009.




    In addition, color-coding could be improved at the specific mail processing operations.
    Chart 1 shows 3 groupings of mail before processing – the oldest mail represented by a
    violet color tag, dated March 7; more recent mail represented by the yellow color tag
    dated March 10; and the most recent mail represented by the pink color tag, dated
    March 11. After the mail was processed we observed employees incorrectly attached a
    yellow tag to all the mail and dated it March 11, with a 10 a.m. processing completion
    time.


                    Chart 1: Process Observed at the West Palm Beach P&DC

        Violet
S
      March 7
T
    Various Times
A
G
E
D       Yellow                        Processing                        Processed Mail
      March 10                        Equipment                             Yellow
M   Various Times                                                          March 11
A
I
                                                                           10:00 AM
L        Pink
      March 11
    Various Times



    Rather, the proper procedure as depicted in Chart 2, was to tag all the mail with the
    oldest date of March 7, represented by the violet color tag. After the mail was
    processed, all the new violet color-code tags should have received earliest time of the
    March 7 mail.




                                                        11
    Color-Coding of Standard Mail and Mail Condition Reporting at the                NO-AR-09-006
     West Palm Beach Processing and Distribution Center



                    Chart 2: The Correct Procedure for Color-Coding the Mail

        Violet
S     March 7
T   Various Times
A
G
E                                     Processing                        Processed Mail
        Yellow                                                               Violet
D     March 10                        Equipment
    Various Times                                                          March 7
M
A
                                                                         Earliest Time
I        Pink
L     March 11
    Various Times




    Causes

    These conditions occurred due to:

         Insufficient color-coding oversight and training.
         Not having local procedures for maintaining the mail color-code after processing.
         Failure of employees to follow the color-coding policy.

    Criteria

    According to the National Color-Code Policy for Standard Mail, color-coding procedures
    provide a guide to help maintain service goals for Standard Mail. All Standard Mail will
    be color-coded. Standard Mail identified without a color-code, will be coded the same
    as the oldest mail in the unit at the time of its discovery. Additionally, all color-code tags
    will comply with a standardized national format which will require employees to enter the
    date and time of mail entry on each tag. The delivery color-code is based upon the
    original entry date and time of the mail, not the processing date or time. Additionally,
    the P&DC must develop local procedures to ensure that they maintain the correct color-
    code for all mail based on its arrival, even when such mail is entered into mechanized or
    automated sorting systems.

    Effect

    The Postal Service cannot ensure the timely processing, dispatching, and delivery of
    Standard Mail. Without a date and time on the tag, the Postal Service cannot determine
    whether employees processed Standard Mail using the FIFO method. Additionally, the
    Postal Service cannot readily track service standards and accurately report mail
    conditions in MCRS. Not color-coding dock transfer mail limits the delivery unit’s ability
    to timely process and deliver the mail.




                                                        12
Color-Coding of Standard Mail and Mail Condition Reporting at the              NO-AR-09-006
 West Palm Beach Processing and Distribution Center


Mail Condition Reporting

The West Palm Beach P&DC was not accurately reporting delayed mail. For example,
we observed from March 10 through 13, 2009, the West Palm Beach P&DC reported
159,087 delayed mailpieces of Standard flats, whereas it should have reported a total of
255,073 delayed mailpieces. Thus, the reports were understated by 95,986 mailpieces.

To confirm our observations, we compared the data collection sheets to MCRS reports
during February 2009. During that time, the West Palm Beach P&DC underreported
delayed mail flow volume by approximately 1.8 million mailpieces. (See Table 2, on
page 13). The actual amount represents over 50 times more than originally reported.

Criteria

According to the National Color-Code Policy and the policy for mail condition reporting,
reporting delayed mail flow for Standard Mail is necessary to provide an accurate
snapshot of daily facility conditions for Standard Mail. Additionally, destinating 5-digit
non –DPS mail should be reported as delayed one day before the scheduled delivery
day.

Cause

Because of a misinterpretation of the policy, West Palm Beach P&DC management
believed they had until the delivery day to process the mail before reporting it as
delayed. While this is the procedure management must use for DPS letters, they have
one less day for 5-digit flats. This additional day of mail reported as delayed greatly
increased their delayed mail flow count from about 8 percent to 13 percent.

Effect

Not properly reporting mail as delayed prevents management from making effective
operational decisions. Delaying the mail can negatively affect customer service.

Management Action

West Palm Beach P&DC management took immediate corrective action when the
proper reporting procedures were brought to their attention. Based on management’s
corrective action, we are making no recommendation.




                                                    13
Color-Coding of Standard Mail and Mail Condition Reporting at the                     NO-AR-09-006
 West Palm Beach Processing and Distribution Center


                   Table 2: Delayed Mail Flow Reporting, February 2009

                       Staging Destinating Secondary Standard Flats
                                     Reported             Actual
 February          On-Hand                                                            Percent
                                     Delayed             Delayed     Underreported
   2009            Volume                                                             Delayed
                                       Total              Total
      1                134,938                 0            75,500           75,500          56
      2                 48,502             2,406            48,502           46,096         100
      3                 66,101                 0            66,101           66,101         100
      4                 53,734                 0            45,714           45,714          85
      5                 55,338             6,416            48,922           42,506          88
      6                 70,613                 0            70,613           70,613         100
      7                 36,090                 0            36,090           36,090         100
      8                 98,308                 0            97,521           97,521          99
      9                 20,792                 0            20,792           20,792         100
     10                 91,180                 0           101,804          101,804         112
     11                 58,463                 0           109,581          109,581         187
     12                123,478                 0            81,804           81,804          66
     13                 57,189                 0            57,189           57,189         100
     14                 61,739                 0            61,739           61,739         100
     15                176,035                 0           124,707          124,707          71
     16                 Holiday                                 No           Report
     17                     802               0                802              802         100
     18                 48,802                0             48,802           48,802         100
     19                 56,297                0             23,507           23,507          42
     20                 42,903                0             42,903           42,903         100
     21                 12,030                0             12,030           12,030         100
     22                108,899                0            108,899          108,899         100
     23                 60,150                0             60,150           60,150         100
     24                161,157                0            166,771          166,771         103
     25                 59,812                0             60,952           60,952         102
     26                 97,499           16,542             97,499           80,957         100
     27                 81,968            6,416             10,396            3,980          13
     28                118,681                0            118,681          118,681         100
    Total            2,001,500           31,780          1,797,971        1,766,191          90




                                                    14
Color-Coding of Standard Mail and Mail Condition Reporting at the                         NO-AR-09-006
 West Palm Beach Processing and Distribution Center


    APPENDIX C: OBSERVATIONS OF COLOR-CODING OF STAGED MAIL AT THE
                        WEST PALM BEACH P&DC

                                  Containers   Missing   Incomplete     Wrong     Tag      Error Rate
    Date      Time    Location    Observed      Tags        Tags        Color    Origin    Percentage
                        dock                                                    51 P&DC
    9-Mar    17:15      area             54         0               0     0      3 BMC              0
                        dock
    9-Mar    17:30      area              5         5               0     0      P&DC             100
                       5-Digit
                         Flat
10-Mar        6:45     Staging           77         0               0     0      P&DC               0
                       SPBS 6
10-Mar       22:00      area             66         2               0     0      P&DC               3
                       AFSM 7
                       Staging
10-Mar       22:15      Area             33         0               0     0      P&DC               0
                        dock
10-Mar       22:20      area             38         0               2     0      P&DC               5
                        dock
10-Mar       22:30      area              2         0               0     2      BMEU             100
                       AFSM
10-Mar       22:50       100             13         0               0     0      P&DC               0
                        SPBS
11-Mar        0:05      area              1         0               1     0      BMC              100
                       AFSM
                       Staging
11-Mar       17:50      Area             29         0               3     0      P&DC              10
                        dock
11-Mar       20:00      area             72         2               0     0      P&DC               3
                        dock
11-Mar       20:30      area              5         0               0     0      BMC                0
                        dock
11-Mar       22:50      area              2         0               0     2      BMC              100
                        dock
12-Mar       19:15      area              4         1               0     3      BMC              100
                        dock
12-Mar       19:20      area             95        45               0     0      P&DC              47
                        SPBS
                       Staging
 13-Mar       8:15      Area             41         4               2     2      BMC               20
TOTAL                                   537        59               8     9                        14




6
    Small Parcel Bundle Sorter.
7
    Automated Flat Sorting Machine.




                                                    15
Color-Coding of Standard Mail and Mail Condition Reporting at the   NO-AR-09-006
 West Palm Beach Processing and Distribution Center


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                    16
Color-Coding of Standard Mail and Mail Condition Reporting at the   NO-AR-09-006
 West Palm Beach Processing and Distribution Center




                                                    17
